19-251, 19-255

 

 

 

IN THE

Supreme Court of the Anited States

AMERICANS FOR PROSPERITY FOUNDATION, PETITIONER,

v.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA, RESPONDENT.

THOMAS Mork LAW CENTER, PETITIONER,

Vv.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA, RESPONDENT.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR CHINA AID ASSOCIATION
AS AMICUS CURIAE IN SUPPORT
OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,514 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

Hs

Colin Casey H¥gan
Wilson-Epes Printing Co., Inc.

  
